<html>
<title> - DEMONSTRATIONS IN TAHRIR SQUARE: TWO YEARS LATER, WHAT HAS CHANGED?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  DEMONSTRATIONS IN TAHRIR SQUARE: TWO YEARS LATER, WHAT HAS CHANGED?

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2013

                               __________

                            Serial No. 113-9

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
79-578                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Elliott Abrams, senior fellow for Middle Eastern 
  Studies, Council on Foreign Relations..........................     8
Katrina Lantos Swett, Ph.D., chair, U.S. Commission on 
  International Religious Freedom................................    14
Tamara Cofman Wittes, Ph.D., director, Saban Center for Middle 
  East Policy, The Brookings Institute...........................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Elliott Abrams: Prepared statement.................    10
Katrina Lantos Swett, Ph.D.: Prepared statement..................    16
Tamara Cofman Wittes, Ph.D.: Prepared statement..................    25

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    54
Questions submitted for the record by the Honorable Joseph P. 
  Kennedy III, a Representative in Congress from the Commonwealth 
  of Massachusetts, to Tamara Cofman Wittes, Ph.D................    55


  DEMONSTRATIONS IN TAHRIR SQUARE: TWO YEARS LATER, WHAT HAS CHANGED?

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. I 
want to recognize the presence in the audience of a dear friend 
of our committee, Annette Lantos, the widow of the late 
chairman of this committee, Tom Lantos. It is always a 
pleasure, Annette, to see you. Thank you.
    After recognizing myself and the ranking member, my good 
friend, Mr. Ted Deutch, for 5 minutes each for our opening 
statements, I will then recognize other members seeking 
recognition for 1 minute each.
    We will then hear from our witnesses and without objection, 
the witnesses' prepared statements will be made a part of the 
record and members may have 5 days to insert statements and 
questions for the record, subject to the length limitation and 
the rules.
    Before I begin my remarks, I would like to convey my 
deepest condolences to the families of the nearly 20 tourists 
killed and others injured in the horrific hot air balloon 
accident in Egypt today. Our thoughts and prayers are with 
their families.
    The Chair now recognizes herself for 5 minutes. Two years 
ago, on January 25, Egyptians were poised to cast off the yoke 
of oppression and maybe, just maybe, bring an end to 
authoritarian rule in Egypt. The hopes of the Egyptian people 
and those of many other nations across the globe, including 
here in the United States, would be that Egypt would finally be 
able to transition to true democratic rule.
    Then in June 2012, Mohammad Morsi and the Islamic Muslim 
Brotherhood came to power. Hopes for a free and democratic 
society in Egypt quickly eroded into fears that the new Muslim 
Brotherhood-led government would turn on its people. Last 
November, Morsi took unilateral action to consolidate his power 
by issuing a decree that he would be immune from judicial 
challenge while also orchestrating a draft constitution that 
imposes strict Islamist practices.
    The new constitution was hastily put together after 
opposition parties and religious and ethnic minority groups 
abandoned the discussion over their objections to the Islamist-
dominated proceedings. Instead, the Muslim Brotherhood-led 
government was able to integrate Sharia law into the 
constitution while leaving out crucial protections for ethnic 
and religious minorities.
    In addition, there have been reports of unprecedented 
crackdown on Egyptians trying to express their freedom of 
speech, freedom of the press, and freedom of assembly. Earlier 
this month, a live TV broadcast caught Morsi's police agents 
brutally beating, stripping, and dragging an Egyptian civilian, 
Hamada Saber, during protests against the regime in Cairo. 
Dozens of protesters have died or have been injured in clashes 
with the Morsi regime, yet this has not deterred Morsi, nor has 
it affected the Obama administration's stance on Egypt.
    Since the 2-year anniversary of the Egyptian revolution, 
Egyptians have rushed to Tahrir Square and to the streets 
chanting the same slogans they used to oust Mubarak. In their 
eyes, this revolution is not over. Their objectives have not 
yet been reached as they thirst for democracy and protections 
of their human rights. Nevertheless, the U.S. administration 
continues to double down on its failed Egypt policy and has 
done nothing to prevent U.S. taxpayer dollars, F-16 fighter 
jets, tanks, and other support to be sent to the Morsi regime.
    Much attention has justifiably been given to the Benghazi 
attacks on September 11th, but many may forget that our Embassy 
in Cairo was also attacked on that same date. During this 
attack the Egyptian Government failed to provide the necessary 
security support needed to prevent the protesters from 
breaching the walls of our Embassy.
    As our nation is set to face dramatic economic cuts this 
week due to sequestration, we should not be providing funds 
without conditions to the Muslim Brotherhood-led government 
that is not conforming to democratic principles and is not on 
the right path to fulfill its obligations to the international 
community and to its own citizens.
    As the administration seeks to send hundreds of millions of 
U.S. taxpayer dollars to the Morsi regime, we need to reexamine 
our aid package and use it as leverage to promote true, 
democratic reforms in Egypt. To accomplish that, I reintroduced 
HR 416, the Egypt Accountability and Democracy Promotion Act. 
This bill conditions our security and economic assistance to 
Egypt in order to advance US national security interests by 
ensuring that Egypt protects freedom, human rights, the rule of 
law, civil society organizations and upholds the 1979 Egypt-
Israel Peace Treaty.
    During Morsi's tenure, videos surfaced showing Morsi 
describing Jews as ``bloodsuckers and descendants of apes and 
pigs.'' Morsi has yet to demonstrate his willingness and 
ability to properly secure the Sinai. And Morsi has rolled out 
the red carpet to Ahmadinejad in an attempt to reestablish ties 
with Iran, a state sponsor of terrorism that actively seeks the 
destruction of our closest friend and ally, the democratic 
Jewish state of Israel. We must recognize that the Morsi 
government is unstable and not yet proven worthy of unabated 
economic and military support.
    And with that, I yield to the ranking member, my friend, 
Mr. Deutch for his opening statement.
    Mr. Deutch. Thank you very much, Madam Chairman. Thanks to 
the witnesses for appearing today and before I start, I also 
would like to just express my condolences to the families of 
those who were lost in the tragic hot air balloon accident, 
families who literally are in all parts of the globe, and our 
thoughts and prayers will be with them.
    In the aftermath of Hosni Mubarak's 30-year reign, US 
policy toward Egypt has become increasingly difficult to 
navigate as Egypt's civil society and government institutions 
are now led by inexperienced politicians whose organization, 
the Muslim Brotherhood, had been banned for decades. The fact 
remains that Egypt is now governed by an Islamist government 
and we must determine how US policy should reflect this change.
    The United States continues to provide $1.3 billion in 
military funds to the Egyptian military in hopes of wielding 
American influence and creating a stable security situation for 
the United States and for our allies. Despite our large amount 
of assistance, we still have major disagreements with Egypt. 
There is no doubt we have a drastically different world here 
with President Morsi. And the history and belief system of the 
Muslim Brotherhood is profoundly alarming for both the United 
States and for our ally, Israel.
    The tempting position, therefore, is to oppose all aid to 
Egypt. Such a decision, I believe, would have serious 
ramifications for our interests. First, it is likely that Egypt 
would abrogate its peace treaty with Israel. Second, the 
Egyptian military would lose tremendous power and the military 
still operates virtually independent of the Morsi government 
and weakening the military would give the Muslim Brotherhood 
nearly complete control. Third, it is safe to say that 
Ahmadinejad and the Iranian regime would love nothing more than 
to see the U.S.-Egypt relationship crumble as it would bolster 
Iran's ambitions to be the region's power. Therefore, despite 
my objections to many aspects of the current Egypt Government, 
I cautiously continue to support our military and economic 
assistance to Egypt, but only, only if we can be certain that 
our aid is used in the smartest and most effective way 
possible; only, only if it protects the security interests of 
the United States and our allies.
    The collapse of U.S.-Egyptian relations would pose a grave 
security threat to our troops in the region and to Israel, and 
the effects would reverberate throughout the Middle East. The 
US has been cautious in dealing with the new Egyptian 
leadership, and continued political missteps and outrageous 
statements by President Morsi seem to repeatedly highlight our 
concerns. Morsi's attempts at seizing extra presidential powers 
in November, the rushed passage of an incomplete constitution, 
and the continued refusal to engage with opposition parties 
have reignited tensions across Egypt. These actions beg the 
question can Mohammad Morsi and a Muslim Brotherhood-led 
government be a reliable US partner? Morsi has shown little 
appetite for taking political risks, save for his role as 
broker of the cease fire between Hamas and Israel last fall.
    Despite the United States' strong condemnation of Morsi's 
past anti-Semitic and anti-Israel comments, he has yet to 
disavow these and other past statements of great concern. This 
is incredibly troubling. Yet, Morsi has repeatedly given 
assurances that he will uphold the 1979 Peace Treaty with 
Israel.
    In addition, the Egyptian military has been destroying 
smuggling tunnels in the Sinai into Gaza, the main route used 
to transport weapons to Hamas. But the Sinai became a virtually 
lawless region following the revolution. Instability in the 
Sinai had given way to an increase in kidnappings and activity 
by radical groups, all of which culminated in an attack along 
the border that killed 16 Egyptian soldiers last August. In the 
6 months since the attack, the Egyptian military has ramped up 
is efforts to control the Sinai and I am encouraged by the 
cooperation between Israeli and Egyptian militaries, but it 
remains to be seen whether Morsi has the political will to 
withstand any future rise in domestic opposition to the Peace 
Treaty with Israel.
    I am encouraged by yesterday's news that President Morsi 
has moved parliamentary elections to May in order to allow for 
all Egyptians to take part. The secular opposition, now 
somewhat united, is already threatening to boycott those 
elections. President Morsi must engage the opposition in a 
meaningful way. Efforts to shut out the opposition will result 
in the continued polarization within Egypt and continues to 
keep tensions running high on the streets.
    It is incumbent upon the United States to send a clear 
message that democracy must be upheld. President Morsi simply 
must commit to ensuring the rights of all Egyptians. We have 
got to ask ourselves and I hope our witnesses will address what 
level of trust, if any, exists between the Muslim Brotherhood 
and the opposition parties. Is the Muslim Brotherhood 
attempting to consolidate power? And finally, what are the next 
steps to ensure that American interests and the interests of 
our allies are protected while not letting Egypt become a 
failed state or worse.
    I look forward to exploring these issues and others with 
our panel. And again, thanks very much for being here today.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. I will 
recognize members for a 1-minute opening statement should they 
desire.
    Mr. Chabot of Ohio, the chairman of the Subcommittee on 
Asia and the Pacific is recognized.
    Mr. Chabot. Thank you, Madam Chair, for holding this 
important hearing to look at developments in Egypt, 2 years 
after the so-called ``Arab Spring.'' One of the great concerns 
I had at the time of the revolution in Egypt, a concern I know 
you shared as well, was that the rise to power of the Muslim
    Brotherhood and its Islamist jihadist allies would threaten 
the peace and security in the region, particularly with regard 
to our closest ally in the Middle East, Israel. I am sorry to 
say that those concerns 2 years later have not been alleviated.
    I am looking forward to hearing the testimony from our 
distinguished panel of witnesses this morning, who I know will 
share their thoughts with us on what's happening now in Egypt 
and what developments we can expect to see in the months ahead 
with regard to our bilateral relationship, the Egyptian-Israeli 
relationship, Egypt's role in the Israeli-Palestinian peace 
process, and the stability or lack thereof of the Morsi 
government. I know their comments will be enlightening and I 
know we all look forward to them. Thank you very much.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot. Mr. Vargas 
of California is recognized.
    Mr. Vargas. Thank you very much, Madam Chair. I want to 
thank you for holding this hearing and thank the distinguished 
panel for being here today. I, too, have great concerns about 
the issues in this region, especially here in Egypt. The Morsi 
regime and the Muslim Brotherhood rule means that our national 
security interests for the rights--and also the rights of the 
Egyptian people, I think, are threatened. I've seen, all of us 
have seen, since the assumption of office in June 2012, 
President Mohammad Morsi has done a terrible job in bringing 
about a peaceful transition of power from marginalizing his 
opponents, critics, and protesters to strengthening the 
relationships with Iran. Morsi's actions have rightfully caused 
great concern here in the United States.
    I would also ask the panel if they could address the issue 
of what effects these developments in Egypt will have on our 
peacekeeping forces. My understanding is that we continue to 
have 600 Americans in Egypt as well as 1,000 others in the 
force. So anyway, I would like to hear about that, too, because 
I think it is very important for us to know how Egypt is 
stabilizing the peace with Israel and as well threatening our 
own troops. Thank you.
    Ms. Ros-Lehtinen. Thank you. Mr. Kinzinger of Illinois is 
recognized.
    Mr. Kinzinger. Thank you, Madam Chair, and thank you all 
for coming. You know, one of the concerns especially over the 
next few days as we deal with sequester which we're all going 
to get sick of hearing, I already am, we're dealing with the 
question and the issue of America's role in the world and 
especially when it comes to Egypt. What I am concerned about 
and what I am interested in hearing from you is what do we do 
to stay engaged in Egypt? What leverage do we have besides just 
aid? Because I am afraid that we're sending the message both 
with sequester and I think frankly with this administration's 
actions that America is disengaging from the world.
    My concern is when you see America retreat from the world, 
you see that retreat followed up by chaos coming where America 
once was. And I fear the day when our allies no longer love us 
and our enemies no longer fear us. And so my concern and my 
question is how do we ensure that we have the maximum leverage 
in Egypt? How do we maintain an alliance with them, but also 
hold them accountable to the values that we believe and 
frankly, the values that America stands for around the globe.
    I thank you all for coming.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Kennedy of 
Massachusetts is recognized.
    Mr. Kennedy. Thank you, Madam Chair, and thank you to the 
ranking member and thank you very much, the witnesses, for 
being here today and to the chair again for holding a very 
important hearing today.
    We heard so much about the role of Egyptian youth in 
igniting the Arab Spring, the Arab Awakening, and the important 
role that it played in Tahrir Square and the demonstrations and 
the youth movement throughout North Africa and the Middle East. 
And I would love to get and am looking forward to hearing your 
comments about what the international community, what the 
United States can do and should be doing in order to make sure 
that so many of these young adults that are coming of age in a 
transition to democracy continue to believe in democracy and 
continue to make sure that they have a stake in this process as 
it moves forward. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. DeSantis of Florida.
    Mr. DeSantis. I am not going to make a statement, Madam 
Chairwoman. Thank you.
    Ms. Ros-Lehtinen. I will give your time to Mr. Meadows of 
North Carolina.
    Mr. Meadows. Thank you, Madam Chairman, and thank you to 
the witnesses for being here today, specifically as we look at 
this particular issue. I would love for you to address as we 
start to look at there has been reports recently of a draft 
constitution and comparing that to the 1971 constitution and 
the word changes that are out there. So as we start to look at 
that, some of the things mentioned in there were very 
problematic when we look at a democracy and truly the rule of 
law. So I would love for you all to comment on that. Thank you. 
I yield back.
    Ms. Ros-Lehtinen. Thank you, sir. Congresswoman Meng of New 
York is recognized. Thank you.
    Ms. Meng. Thank you, Madam Chair, and Ranking Member, and 
thank you to the witnesses for being here today. There are 
obviously very disturbing trends in Egypt that must be closely 
monitored. Egypt must recognize that its greatest threat is not 
Israel, but rather the scourge of extremism and violence that 
is overtaking its country and threatening the stability of its 
neighbors. As such, our military aid to Egypt must increasingly 
focus on border security, counterterrorism, and 
counterinsurgency activities. And we must insist that our aid 
serves these purposes.
    So as not to repeat the mistakes of the past, we must 
pressure Mr. Morsi's government to build the institutions and 
civil society necessary to achieve true democracy. Relatedly, I 
am deeply concerned about the threats to women in Egypt. The 
recent surge and violence against women and the curtailment of 
their political rights are not only women and human rights 
issues, but they also lead us to question the Egyptian 
Government's commitment to a free and democratic society. I 
look forward to hearing from the panel. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    Dr. Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chair, Ranking Member and 
panelists. I just want to say, you know, in these tough 
economic times, it is absolutely necessary for us to scrutinize 
every dollar that the American people spend and for our 
Government to follow through with that and that we give it in 
good faith that we get a good return on that investment. And I 
look forward to hearing your statements today so that we can 
draft up some great policies to help both countries and the 
rest of the world. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Congresswoman Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair. I look forward to 
hearing this panel. I am interested in really the good and the 
bad and the ugly. I would like to know what Egypt is doing well 
to bring security to Israel and the Middle East. And what are 
the areas that we need to be concerned about. I think all of us 
and the American people, especially as we talk about the budget 
cuts and so forth, is for you to tell us why continued aid to 
Egypt would be important for the security of Israel and 
important to the stability of the Middle East.
    I would like to echo Ms. Meng and say that I, too, am 
concerned about the reports of rape and attacks on women 
protesters. And I would want to know what, if anything, can be 
done about that. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you so much. Mr. Weber of Texas is 
recognized.
    Mr. Weber. Thank you, Madam Chair. I really don't have a 
lot to say. I am looking forward to hearing from our panel. I 
am interested in the jets sales, the jets that are set to go to 
Egypt. I don't know if any of you are set to address that, but 
I hope to have some discussion about that and I echo my good 
friend and colleague, Dr. Yoho's comments about we need to be 
very good stewards of our money and good policy going forward. 
Thank you.
    Ms. Ros-Lehtinen. Thank you, sir. And Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and I, too, 
welcome our witnesses today. I think it is really important 
that this subcommittee of the House Foreign Affairs Committee 
be very cognizant of the fact that Egypt is a work in progress. 
It is not going to be perfect. And where it is not and we can 
try to influence it in a positive direction, that is what we 
need to do.
    We have a lot at stake. This is the largest Arab population 
in the world. Camp David must respected. We have a lot at stake 
in this relationship. And so I think we need to eschew harsh 
rhetoric while still trying to use our good influence to good 
effect on the Morsi government. So I look forward to hearing 
from our witnesses today, but I would hope we would keep 
moderation and nuance in mind in what is an emerging and 
evolving Egypt. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you. And now the Chair is pleased 
to welcome our witnesses. First, we have the Honorable Elliott 
Abrams, senior fellow for Middle Eastern Studies at the Council 
on Foreign Relations in Washington, DC. Previously, he served 
as Deputy Assistant to the Secretary and Deputy National 
Security Advisor in the administration of President George W. 
Bush. Welcome, Dr. Abrams.
    Next, we would like to welcome Dr. Katrina Lantos Swett, 
chair of the U.S. Commission on International Religious 
Freedom. Also, Dr. Lantos established the Lantos Foundation for 
Human Rights and Justice in 2008 and serves as its President 
and Chief Executive Officer, carrying on the legacy of our late 
chairman and dear colleague, Congressman Tom Lantos. We welcome 
you.
    And finally, we welcome Dr. Tamara Cofman Wittes. Dr. 
Wittes is a senior fellow and the director of the Saban Center 
for Middle East Policy at Brookings. Dr. Wittes served as 
Deputy Assistant Secretary of State for Near Eastern Affairs 
from November 2009 to January 2012.
    I would like to kindly remind our witnesses that your 
prepared remarks have been made a part of the record and I 
kindly request that you keep your statements to 5 minutes. 
Thank you so much and we will begin with the Honorable Elliott 
Abrams.

 STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, SENIOR FELLOW FOR 
      MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you, Madam Chairman. It is a pleasure to 
be here today. I thank you for the invitation. The questions 
the members have posed will only take about 4 hours to answer.
    There are a lot of disturbing trends as several of you have 
mentioned. More charges have been filed for the crime of 
insulting the President in the less than 1 year of Mohammad 
Morsi's rule than since 1892.
    Freedom of assembly, I'll give another example, is very 
much under threat under new laws that have been proposed. The 
problem seems to be that the Muslim Brotherhood leaders of 
Egypt are not seeking compromise and accommodation. They are 
seeking just to rule Egypt and rule it in their direction. The 
chairman of the Egyptian Human Rights Organization wrote 
recently ``as the situation stands, a grim future lays ahead 
for democratic transformation and human rights in Egypt.'' And 
he added that Egypt's new draft constitution ``fails to offer 
the necessary safeguards for human rights.'' In fact, the term 
human rights doesn't appear.
    The thing is President Morsi won by 51 to 48. He didn't win 
in a giant landslide in that June election last year. Nearly 
half of all Egyptians did not want a Muslim Brotherhood 
government. And that should have suggested that accommodation 
and compromise were the way to go and the healthiest thing, but 
don't seem to.
    As you know, Egypt's economy is in real trouble, too: The 
Egyptian pound falling, foreign currency reserves falling, 
tourism falling, foreign direct investment falling. Desperate 
need for foreign currency with which to buy bread. Egypt is the 
largest importer of grain in the world, but grain traders today 
say ``they are living hand to mouth.''
    Now the IMF keeps postponing, having to postpone loan 
negotiations due to political turmoil in Egypt. There is 
another huge problem which is the growing lack of law and 
order, the rising crime rate, and especially the number of 
assaults on women. There is an epidemic of sexual harassment 
and rape in Egypt. And women who take to the streets to protest 
are often themselves subject to more abuses.
    I want to go back to the economic because the fact is they 
are linked. Egypt cannot solve its economic problems until it 
addresses its political problems. The economic solutions 
require some hard steps and those cannot be taken unless there 
is a kind of consensus. But there is no political consensus and 
therefore, there is no consensus on what to do on the economy.
    The political crisis and the economic crisis are linked.
    So I would urge the committee to take a bottom to top look 
at our aid program, the timing, the conditionality, and the 
composition. I don't think we should return to what was really 
our pattern of decades which was if their foreign policy is 
okay, we don't much care what happens inside Egypt. I think 
that was a mistaken policy.
    I don't think we should be supplying things like F-16s that 
Egypt does not need to address the security concerns that it 
really has: The absence of law and order in the streets, the 
problems of anarchy, really, in parts of the Sinai, the 
prevention of terrorism in the Sinai. We run a great risk, I 
fear, of appearing to many Egyptians to be indifferent to the 
human rights struggle that is taking place in Egypt today. If 
we are on auto pilot with the aid program, that is the message 
that they are going to receive. And despite the huge changes in 
Egypt in the last couple of years, there really haven't been 
many changes in our aid program. So there is no impact from 
President Morsi's horrendous anti-Semitic comments. There is no 
impact from the new constitutional provisions which disfavor 
anyone but Sunni Muslims. There is no impact from the 
continuing trial of 43 NGO workers who were set to work on our 
aid program. Those trials have not ended. But there is no 
impact on our aid program.
    I think all of this needs to be taken into account as you 
look forward to the continuation of the aid program in Egypt. I 
don't think it can be right that those vast changes there lead 
to zero changes in the way we give aid to Egypt. I urge to 
undertake that kind of review. And I thank you again, Madam 
Chairman, for holding this very important hearing.
    [The prepared statement of Mr. Abrams follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Dr. Abrams.
    Dr. Lantos Swett, thank you.

     STATEMENT OF KATRINA LANTOS SWETT, PH.D., CHAIR, U.S. 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

    Ms. Lantos Swett. Thank you so much, Madam Chairman. This 
is an extraordinarily important hearing. We can always rely on 
you, Congresswoman Ros-Lehtinen, to draw attention to the most 
pressing issues of the day and so I am really very grateful 
that you have chosen to convene this hearing.
    The short and simple answer to the question how have things 
changed in the last 2 years is that much has changed in Egypt, 
but much more needs to change if the Egyptian people are going 
to realize their hopes for a genuine democracy that represents 
all Egyptians, fully respects the rule of law, and complies 
with international human rights standards including freedom of 
religion and belief. These issues matter significantly.
    Madam Chair, because of these concerns I led a UCIRF 
delegation to Cairo earlier this month to assess religious 
freedom condition in the country. And I think that gives me a 
bit of an advantage because I literally was there in just the 
last few weeks and look forward to answering your questions 
about the very fascinating encounters we had with a wide range 
of individuals.
    The overwhelming sense we got from nongovernment 
interlocutors with whom we met was that there was little reason 
for optimism about the country's short-term trajectory under 
President Morsi. Some we spoke with felt strongly that the 
Morsi government has not been inclusive of or taken seriously 
the liberal and secular opposition's views. The most common 
concerns we heard focused on the poor state of the economy, 
increasing radicalization in a society that negatively impacts 
women and religious minorities, troubling provisions in the new 
constitution limiting religious freedom and other rights, and 
frustration about the continuing climate of impunity for 
numerous acts of violence, including those targeting Coptic 
Christians since the beginning of the revolution 2 years ago.
    Regarding the violence and continuing climate of impunity, 
it is unclear to what degree how much the current government 
could effectively do to improve the situation even if it had 
the genuine desire to do so, but we found skepticism among many 
we spoke to that that desire was there. As a consequence of the 
ups and downs in Egypt over the past 2 years, there have been 
some positive societal developments, particularly among 
religious and secular groups. Christian communities, including 
Coptic, Orthodox, Protestant, Catholic, and others, have 
started to organize with opposition groups and representatives 
from al Azar to counter religious extremism. Notably, all 
Christian groups have come together to form for the very first 
time in Egyptian history a council of churches which has held 
its first meeting just last week.
    Overall, our visit to Egypt confirmed that the situation is 
indeed complicated and concerning. Egypt is arguably the most 
important country in the region and during this transition is 
inadequately protecting the rights of its citizens, including 
the right to freedom of religion and belief. The United States 
has a unique role to play and our Government must do more to 
press Cairo to implement real and meaningful reforms. We cannot 
afford to sit idly by.
    And before I close my testimony, I would like to share a 
very dramatic encounter I had with the Deputy Minister there 
that in some ways was the most revealing episode of our whole 
visit. I brought up to him the comments that others have 
referenced by President Morsi calling on the Egyptian people to 
nurture their children and grandchildren in hatred of Jews and 
Israel down to the last generation, calling Jews the 
descendants of apes and pigs. And I was sitting much, much 
closer to him than we are, a little more like the distance 
between my good friend and colleague, Elliott Abrams. And I 
said to this individual who happened to be a Salafi Muslim, I 
said, ``Your President is calling on hatred of me and of my 
children to be nurtured and by your children down to the last 
generation. Your President is calling me the descendant of apes 
and pigs, calling my seven children the descendants of apes and 
pigs.''
    You could hear a pin drop in the room. I said, ``This is 
not the conduct, this is not the language, of a civilized 
society. This is not the way people address their fellow 
citizens and their fellow human beings in a civilized 
society.'' I pivoted and said, ``What if your President, 
tomorrow, were to stand up and address the Egyptian people and 
the world and say, enough, this is a stain on our character. 
This is a stain on our national honor. Never again, no more 
will we permit people in positions of responsibility and power 
in our country to speak in this way about our cousins, the 
Jews.'' I said, ``Well, he would receive plaudits from every 
corner of the world, deserved plaudits. And it would open 
potentially a new day for the 1.2 billion Muslims in the 
world.''
    Well, when I shared this experience the next day with a 
reformer, their answer to me was very interesting. They said, 
``The day after the day after President Morsi said something 
like that he would be assassinated by his own people.'' And I 
found that to be perhaps the most disheartening and most 
illuminating moment of our trip to Egypt. I look forward to 
answering your questions.
    [The prepared statement of Ms. Lantos Swett follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much.
    Dr. Cofman Wittes.

   STATEMENT OF TAMARA COFMAN WITTES, PH.D., DIRECTOR, SABAN 
     CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTE

    Ms. Cofman Wittes. Thank you, Madam Chairman, Ranking 
Member Deutch, distinguished members, I am delighted to be with 
you. US policy toward Egypt since the revolution has rested on 
two pillars: Preserving the Camp David Peace Treaty and the 
security of the Israeli-Egyptian Gaza border and trying to 
provide economic assistance that could, with wise Egyptian 
policy, help to stabilize the Egyptian economy and help a new 
government deliver for its people. But like a stool with only 
two legs, this strategy is incomplete and it will not produce 
stability in Egypt for the reasons my friend, Elliott Abrams, 
has noted.
    The United States needs to weigh in and press the President 
of Egypt and his party, as well as other relevant parties, to 
make the necessary accommodations to put Egypt back on the path 
to a stable, democratic transition. Now some argue that the 
United States can't have any real impact on Egyptian politics 
today. I disagree for two reasons. First, because we still have 
a lot to offer and it is not all about our assistance dollars. 
Second, because Egyptians, both inside and outside government, 
still care what we think and what we do about it. If they 
didn't care, if they thought we didn't matter, they wouldn't 
spend so much of their time trying to embroil us in their 
domestic arguments.
    And because they still care, I believe the leverage we have 
is probably most effectively deployed as incentives, not as arm 
twisting. Our recognition, our investment, our visits, our good 
opinion, our expressions of partnership all matter, along with 
our aid dollars.
    Now we can't afford to take a short-sighted approach to 
Egypt's transition. We cannot afford to focus on a 
transactional relationship with the current winners. We can't 
assume we know who will come out on top at the end of this 
messy transition. We have to keep our focus on two long-term 
goals. First is building lasting stability through democracy. 
And that is the choice of the Egyptian people. They have made 
clear that whatever economic and social problems they are 
facing, they want to solve them through democratic means. So we 
need to support that goal consistently.
    The second is building a broad coalition in Egypt to 
support cooperative relations with the US. We will never return 
to the days when Egypt's interests were defined by a single 
man. The US should not be seen as having taken sides in Egypt's 
fractious politics. We need to engage broadly with Egyptian 
politics, with Egyptian society, to make the case for 
partnership and we do have common interests with Egypt and with 
the Egyptian people.
    Egyptians have suffered greatly from Islamist terrorism. In 
polls, they reject violence against civilians at a higher rate 
than any country in the world where Gallup does this polling. 
Egypt's peace treaty with Israel has spared a generation of 
Egyptians the destruction of war and brought them stability. 
Egypt's majority, its young people, want a better future and 
they know that in the 21st century this requires Egypt to be 
connected to the world and the norms that we share.
    Let me turn briefly to the record of the Muslim Brotherhood 
which raises real concerns as my colleagues have stated about 
their commitment to core democratic principles, their 
obligations as democratic actors. We should communicate our 
concerns consistently and at the highest levels, but we also 
have to recognize that with all their flaws, the Brotherhood 
won the freest and fairest elections in Egypt's modern history. 
They may win the next election. They may not win forever, if 
human rights can be protected and a strong pluralist system can 
be built, but we cannot ignore the Brotherhood or wish them 
away.
    The real leverage we have is that the Brotherhood-led 
government wants our recognition and they seek our partnership. 
So we can make clear that their electoral victory does not 
absolve them of their basic obligations to democratic rules and 
norms, if they want to be recognized as democratically 
legitimate on the global stage.
    The political opposition, of course, has lessons to learn 
as well. And I think all of these actors will either learn the 
art of the deal or they will fail in the eyes of Egyptians and 
the world.
    Let me make one more comment about something disturbing 
that I have heard from a number of Egyptians in recent weeks 
who are so worried about the instability and chaos in their own 
country, that they have begun to talk about the possibility of 
a military takeover again. I think a military takeover would be 
a disaster for Egypt, for Egyptian stability, for American 
interests. Military rule would divert attention and resources 
from crucial border security and counterterrorism functions. It 
would undermine our ability to continue the cooperation that is 
so valuable, both to us and to them. And that is especially 
important for the US as we continue to drawdown from 
Afghanistan, face terrorism challenges in Gaza and Sinai and 
the prospect for confrontation with Iran.
    Distinguished members, I look forward to your questions. 
Thank you.
    [The prepared statement of Ms. Cofman Wittes follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Excellent testimony. Thank you, the three 
of you so very much and I am sure that we will have very good 
questions after I am done.
    But I wanted to ask two questions. Number one, on 
conditioning US aid to Egypt and number two on the prospects of 
improved relations or deterioration of relations with Israel. 
Would you agree that our leverage to be credible we cannot 
simply grant financial aid to Egypt until Morsi's Muslim 
Brotherhood-led government meets certain conditions that cannot 
and must not be waived, and do you support conditioning our US 
aid to Egypt until it recognizes certain conditions, its 
citizens' human rights, religious minority rights, protects law 
and order, cracks down on illicit activities in the Sinai, 
etcetera?
    And secondly, on relations with Israel, how do you see 
Egypt-Israel relations in this coming year and with the 
elections that Egypt is going to be holding in the near future? 
Do you think that this will be good for Israel, the kind of 
language to be used? Is it a bargaining chip in all of the 
political debate, etcetera? We will begin with the Honorable 
Elliott Abrams.
    Mr. Abrams. Thank you, Madam Chairman. Those are very 
difficult questions. On the question of relations with Israel, 
Morsi has been careful. For example, within the last few weeks, 
Hamas made another request to open an office in Cairo. And the 
Government of Egypt said no. And you have seen the reports 
about the flooding of those Sinai smuggling tunnels with water 
and with sewage. So those are two things we care a good deal 
about. Those tunnels are how those arms get into Gaza. The 
Government of Egypt seems to be doing a good job, indeed a 
better job than the Mubarak regime did.
    So I think Morsi realizes that any trouble with Israel 
would be devastating at least, at least economically in terms 
of foreign investment, tourism, the IMF.
    Just on the first part, I want to say I agree with you. I 
think conditionality is important. And again, the two go 
together. If there ls no political conditionality, the 
economic----
    Ms. Ros-Lehtinen. I don't want to cut you off because I 
know you elaborated on that in your statement.
    Mr. Abrams. Right.
    Ms. Ros-Lehtinen. If I could have the two other witnesses.
    Ms. Lantos Swett. Absolutely. Can you hear me now? Sorry 
about that. I was saying that in 2012, UCIRF did in fact, 
recommend that the United States Government should certify 
progress on protection for religious rights and broader human 
rights as a condition of disbersement of military assistance. 
So the position that UCIRF has taken in the past, recent past, 
has been that there should be some conditionality on aid as a 
means of exercising leverage. We're still in the process of our 
deliberations for our upcoming report, so I won't address that 
specifically, but I will say here under the watchful gaze of my 
late father, that I know that when he was serving in Congress, 
not only his watchful gaze, but his dog, Gigi. So that that is 
a double whammy. I really better behave myself. But he did 
support a degree of linkage and conditionality. And he always 
felt that that was a means of leverage.
    On the issue of relations with Israel, I agree with my 
colleague, Elliott Abrams, that Morsi has been careful, but I 
think the underlying danger, and this is a great fear that I 
have, is that as this government is unable to deliver on a 
whole range of promises, you have these huge raised 
expectations on the part of the Egyptian people that are now 
slamming into all sorts of disappointment on the economic 
front, on the political liberty front, on the rights front, and 
there is, unfortunately, a long history in that region of the 
world of unifying people----
    Ms. Ros-Lehtinen. I am going to cut you off a second, just 
so I can have Tamara speak.
    Ms. Lantos Swett. Of course.
    Ms. Ros-Lehtinen. Thank you, Madam Chair. I think we have 
to distinguish between the military aid and the economic aid. 
The economic aid, as you know, has been shrinking over the last 
10 years or so. And so I think on the economic side we can be 
most effective either by putting more money on the table if we 
think it is a good investment or more likely by working with 
others. If you look at the total package of assistance that is 
waiting on the signing of an IMF loan, it is about $14.5 
billion. That is a much more significant lever than what we can 
provide alone. And so we should work to develop conditions that 
are shared by the Western governments and the multi-lateral 
organizations that are providing this aid.
    Ms. Ros-Lehtinen. We will wait for your Israel answer at 
another time.
    My ranking member, Ted Deutch is recognized. Thank you.
    Mr. Deutch. Thank you, Madam Chair. Egypt is currently 
among the largest recipients of aid from our country. Our aid 
to Egypt is a stipulation of the Camp David accords. It has 
been the backbone of our relationship with Egypt for decades 
now.
    If we were to eliminate aid to Egypt, we risk US security, 
I think Israel security, stability within the region. We give 
bad actors in the region, like the Iranian regime, I think 
exactly what they would want, but it is not just a question, 
and you have already started speaking to this. It is not just a 
question of whether or not we provide it, it is how--I think we 
need to ask the question, how do we provide, what do we 
provide, and in the context of both of those questions, how 
human rights respect for women and religious minorities, 
democratic principles, to the extent there is conditionality, 
how are those--how do we do it? What are the metrics? How do we 
figure that out as to how we provide the aid?
    When we provide foreign military funding to countries they 
pay, as I understand it, they pay for their purchases up front. 
In the case of Egypt, they have the opportunity to finance 
their purchases. They pay their contracts out over time. The 
only other country that enjoys that system, I think is Israel. 
And so the Egyptian military now has multiple contracts 
outstanding with American defense firms. A study that the GAO 
did back in 2006 found that Egypt had agreements in place in 
excess of $2 billion, some of which weren't going to come due 
until 5 years later. The point is if something happened that 
required a quick cutoff of US aid to Egypt, like a violation of 
the Camp David Accords, at that point the United States and 
ultimately the American taxpayer would be on the hook to pay 
the termination penalties that the defense contractors would be 
owed.
    So should that continue and should the conditionality be 
part of perhaps how we administer that aid?
    And then finally, and you have spoken to this some, but I 
would like you to elaborate, for the past 30 years, Egypt has 
been purchasing military hardware like F-16s and Apache 
helicopters. M1A1 tanks, but Elliott Abrams has spoken to this 
and we have now heard from many of my colleagues that perhaps 
it is in our national security interest and Israel's security 
interest and most importantly Egypt's own security interest 
that we shift from supplying those sorts of offensive 
capabilities to advance counterterrorism capabilities. And I 
would like you to address what that would actually look like, 
what that shift would entail.
    And then the last question is would the Egyptian military 
and would the Egyptian Government object to greater 
intelligence and counterterrorism cooperation with the United 
States? And if the answer to that is no, they wouldn't object, 
then shouldn't they acknowledge that US assistance may be 
better served by focusing on those other areas?
    Dr. Wittes, let us start with you and then we will come 
back.
    Ms. Cofman Wittes. Thank you, Congressman Deutch. Briefly, 
I think on the economic side the most important change we can 
make is to reverse the one change we have made since the 
revolution. We have halted our democracy assistance and our 
support for Egyptian civil society. And in a moment of 
transition, that is, I believe, a mistake and something we need 
to correct. We need to resume that support now.
    On the military side, yes. I think that increasingly the 
Egyptian military and the Egyptian Government are aware that 
their primary security challenge is not a massive land force 
invading their country. It is the 21st century security 
challenges we are all facing and that we need to work together 
to combat. And I think in many ways the Libyan revolution and 
the spiraling effects of that on the neighborhood drove that 
point home.
    I think this is a time when together Egypt and the United 
States can do a real strategic reassessment of military aid and 
how we use it.
    Mr. Deutch. Thanks. Mr. Abrams, what would that look like?
    Mr. Abrams. Too much of the money goes to very big ticket 
items like F-16s. If you are trying, for example, to keep order 
in Sinai, F-16s are not helpful. Other things may be. 
Helicopters may be. APCs may be. Jeeps may be. Training may be. 
So I think you would lose some of the big ticket items, but you 
would have a different composition of the military aid program.
    Mr. Deutch. Thanks. I am out of time, but I hope Dr. Swett 
you will have an opportunity to speak to if we move to 
conditionality what would those metrics look like? What would 
we actually expect to have happened in order to accomplish 
that?
    Ms. Ros-Lehtinen. Thank you so much. Mr. Chabot, the 
chairman of the Subcommittee on Asia and the Pacific is 
recognized.
    Mr. Chabot. Thank you, Madam Chair, and thank our witnesses 
again for their testimony this morning. I don't know if any of 
you had the opportunity to watch 60 Minutes a couple of weeks 
ago when President Obama and Secretary Clinton appeared for a 
joint interview to reflect on the administration's foreign 
policy. The President made an interesting statement. He said 
and I quote: ``When it comes to Egypt, had it not been for the 
leadership we showed, you might have seen a different outcome 
there.'' My first thought was did he really say that? And my 
second thought was I can't believe the interviewer let that go 
unchallenged.
    Today, in Egypt, its Muslim Brotherhood-affiliated 
President has carried out a naked power grab of considerable 
proportions. He bullied through a new constitution backed by 
the Brotherhood that threatens the rights of women and non-
Muslims. Garbage is piling up in the streets. The police force 
is said to be just as corrupt as it was during the Mubarak 
regime. Civil uprisings are occurring throughout the country. 
Opposition figures cite abduction and torture by government 
officials. And now we even hear that bakeries throughout Egypt 
are contemplating a strike later this week to protest rising 
wheat prices.
    So I guess I would have to ask just how much worse could 
things have been in Egypt without the benefits of this 
President's alleged leadership? If I may, I would also like to 
get your thoughts on parliamentary elections now scheduled for 
April. Egyptian opposition leader Mohamed ElBaradai told the 
BBC yesterday that if the elections are held, given the 
adoption of the Islamist-drafted constitution, it could set the 
country on a ``road to total chaos and instability'' and then 
he added ``we need to send a message loud and clear to the 
people here and outside of Egypt that this is not a democracy, 
that we have not participated in an uprising 2 years ago to end 
up with a recycling of the Mubarak regime.''
    I wonder if you might want to comment further on the 
prospects for the parliamentary election and what further bumps 
in the road we can expect as we approach the April dates?
    Dr. Abrams, I would like to hear your thoughts on those 
points that I just brought up.
    Mr. Abrams. Thank you. The problem goes back again to the 
lack of any kind of consensus. The government is moving forward 
despite opposition and not seeking to get any buy in from 
groups outside of the Muslim Brotherhood. So one could envision 
parliamentary elections that would kind of bind up the nation's 
wounds. I don't think these will because the opposition doesn't 
believe that the ground rules are fair and believes as you just 
said that the constitution was railroaded through. So they are 
just being disregarded.
    My fear is that if you combine that with a declining 
economic situation, you are going to see more and more disorder 
and the temptation, as Dr. Wittes said, is always in a 
situation like that to look for a foreign enemy.
    Mr. Chabot. Thank you. We only have a limited amount of 
time so let me go to another question. I will open this up to 
all the panel members. As we all remember when we saw the 
protesters on Tahrir Square, the ones who really did favor 
reform and change and democracy and all the rest, it was 
inspirational to a lot of folks. And of course, the Brotherhood 
at that time was saying we are not interested in governing. We 
don't want the presidency. That is somebody else's business. 
And of course, they were the organized group in the country and 
we saw what happened.
    Are there any prospects for the non-Muslim Brotherhood 
folks to be better organized and do better down the road? Where 
are we there? And I will go with Dr. Wittes here and then we 
will move down that way, although I only have a minute, so if 
you could make it relatively brief.
    Ms. Cofman Wittes. Thank you. I will be as brief as I can. 
The other political parties right now believe that because of 
the crisis facing the President and the Brotherhood, they can 
fight this out in the streets. Both sides are playing a zero-
sum game and that is not constructive. Ultimately, if these 
opposition parties are going to be successful, they have to get 
in and compete and win people's votes. And so yes, the 
President needs to reach out to them and change the electoral 
law so they will come on board and they need to bargain and 
come on board and run.
    Mr. Chabot. Thank you. Dr. Swett?
    Ms. Lantos Swett. Yes. I think that we saw in the religious 
communities a new activism, a new sense on the part of some of 
the minority communities that they need to get engaged 
politically and to some degree make common cause with the 
secularists. They have no confidence in this government. No 
confidence in their role in the society in the future. And 
there were very, very grave concerns expressed about the 
constitution and the way it bakes into the cake some of the 
illegitimacy that they see in the government.
    Mr. Chabot. Thank you. I ran out of time. Just let me say 
it was a real honor to work with your father on this committee 
for so many years.
    Ms. Lantos Swett. Thank you so much.
    Ms. Ros-Lehtinen. It really was. He was a hero to so many. 
Congressman Vargas is recognized.
    Mr. Vargas. Thank you very much, Madam Chair. I appreciate 
the opportunity. If this was a tabula rasa, a blank slate, we 
would never give aid to this country. I mean an oppressive 
leader, who oppresses his people; the Muslim Brotherhood that 
doesn't respect other religions; the President who has said the 
most anti-Semitic things we have heard in the last years. I 
mean this is simply a country that we wouldn't want to give 
aid, especially military aid.
    However, a lot of us do remember Anwar Sadat. We do 
remember that Egypt did come together and sign a peace treaty. 
We remember him ultimately causing his life. They didn't kill 
him the next day, it took a few years, but they ultimately did 
assassinate him for that. He spoke at the Knesset.
    So I guess my question to you is obviously we all have 
great concern about Egypt, its size, its strength, its peace 
treaty with Israel. Could you comment about that? I think the 
American people think it is crazy to give these guys money and 
F-16s, but at the same time there is this other side.
    Dr. Elliott Abrams, could you comment on that?
    Mr. Abrams. Several members of the committee have said this 
is the most populous Arab country and in some ways has long 
been the most influential. I don't think any of us are thinking 
about breaking off from Egypt, particularly because we don't 
like this government which may last for a couple of years or a 
couple of decades. So I think the question is as you look at 
the aid program, not what will make this government happy, but 
given the changes in Egypt and our uncertainty about where they 
will be one or 2 or 5 years down the road, what should that aid 
program look like?
    I don't think a program that looks exactly as it did, 
exactly as it did when Hosni Mubarak left office, except that 
we have stopped the human rights programs can possibly be the 
right way to go. But I wouldn't stop the aid or suspend the 
aid. I would change it.
    Mr. Vargas. How would you change it? Since you haven't had 
much time here, I would like to ask you how would you change 
it?
    Mr. Abrams. Very briefly, I would say look, we need to sit 
down with the new Government of Egypt and say the status quo 
won't work for us. It won't work for Congress. It won't work 
for the American people. Let us put together a new package and 
talk to the Egyptian military about what their needs for this 
coming decade are.
    I don't think that they are in a position to say to us, 
particularly if we are talking with other donors, go away. We 
are not interested in re-thinking this. So I think it would 
look like a military aid package that is adapted to the real 
dangers facing Egypt today. And on the economic side, I think 
Dr. Wittes is right. It is not so much would we give, it is 
that we have enormous influence as part of a coalition of 
donors.
    Mr. Vargas. Thank you.
    Ms. Lantos Swett. I don't have the competency to address 
the specifics of the military aid package, but on the broader 
issue of conditionality and linkage, I think that when we, as a 
country, set aside our human rights concerns for what we 
perceive as our hardcore, tough interest, military interest and 
security interest, we are showing a shortsighted lack of vision 
and we lose not only the moral power of the cause we seek to 
advance, but we also lose the credibility with what is in that 
part of the world called the Arab street. We lose that sense on 
the part of the people in the country that we are standing for 
important values.
    And so I think we really do need to look at conditionality 
and linkage when it comes to vast sums of aid, whether military 
or otherwise and we cannot disconnect that from the situation 
of religious freedom or broader human rights in the society.
    Mr. Vargas. Thank you.
    Ms. Cofman Wittes. Just something very brief to add. We 
want a long-term relationship with country. It is a geo-
strategically important country. But at a moment of tremendous 
change, we need greater flexibility in the way we engage. And 
so we need to look at the aid package in that light. How do we 
increase our flexibility? And in that regard, I think the issue 
of the cash flow financing that Congressman Deutch raised is a 
very important one because when that military aid is tied down, 
we don't have the flexibility to make the changes we need.
    Mr. Vargas. Thank you. And one quick last question to Dr. 
Abrams. Our 600 peace keepers, I believe we still have in 
Egypt. If you could comment on that, any danger to them?
    Mr. Abrams. Yes. That is a really important point. It is 
not a fighting force. It is an observer force, the O in MFO is 
Observer.
    Mr. Vargas. Right.
    Mr. Abrams. There have been a couple of incidents already. 
Because there is a real breakdown of order in the Sinai, so it 
seems to me that we need to look first of all, are they really 
able to defend themselves. And secondly, again, as part of the 
aid package, is the Egyptian army ready, willing, and able to 
defend them?
    Mr. Vargas. Thank you. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Meadows is 
recognized.
    Mr. Meadows. Thank you. As each of you have testified, we 
keep coming back to this change in the mix as we see it, 
perhaps going from more of a military assistance to an economic 
assistance or as Dr. Wittes said, democracy assistance.
    Can you characterize that a little bit better in terms of 
well, we are not just sending dollars there with no 
conditionality, as you would put it? How would we look at the 
dollars that were spent in terms of taking away from the 
military assistance and seeing if we truly have some stability 
in terms of peace keeping within the region? Each one of you 
can comment on that.
    Ms. Cofman Wittes. I think the military assistance, we have 
to recognize it plays an economic role as well indirectly in 
that it is a large component of the military budget. And----
    Mr. Meadows. You mean our military budget?
    Ms. Cofman Wittes. No, the Egyptian budget. So it has a 
displacement effect. To the extent that our military assistance 
is helping them carry out crucial functions, if we were to 
transfer that to economic assistance some other way they would 
have to pay for that or it wouldn't get done. So we do need to 
look at the practical consequences of making such a shift.
    I am actually of the view that working with others in the 
international community, we could put an economic package on 
the table that would be significantly larger and could be a 
positive incentive for the right kinds of decisions by an 
Egyptian Government. The administration put into its last 
budget proposal a Middle East transition fund that would make 
money available to governments in the region that were making 
good choices.
    Mr. Meadows. What are those good choices? Let us get back 
to the condition. We all talk--we all want to get together and 
sing Kumbaya. But what are those good choices that we are 
looking at there?
    Ms. Cofman Wittes. Transition to democracy, in other words 
enshrining human rights, protecting minorities, building good 
institutions with transparency and accountability, good 
economic choices meaning free market choices and choices that 
will produce stability and deliver for people, not just for 
corrupt cronies.
    Mr. Meadows. Okay, based on the changes to the 
constitution, do you see that those protections for religious 
freedom as being really valid?
    Ms. Lantos Swett. If I could address that? I think one of 
the most critical issues that we would need to look to as a 
metric as to whether or not Egypt is going to be capable of 
reforming is, in fact, whether they revisit this very 
problematic constitution. There are a number of very, very 
troubling provisions in it. There are some that sound good, but 
they are overridden by competing provisions that in all 
likelihood will trump the good ones, the nice rhetoric.
    Mr. Meadows. Right.
    Ms. Lantos Swett. And there are provisions that aren't 
discussed that much on this side, here in this country that 
were brought to our attention by women's groups for example, 
lowering the age at which girls can be married off, lowering 
the age of child labor, a number of really, really problematic 
things and perhaps the overarching problem is that the 
constitution, the process by which it was adopted, written and 
adopted, lacks credibility. And so you have this huge divide in 
the society where all the people we would like, all the 
reformers, all the secularists, all the minority communities, 
the human rights activists, will have nothing to do with it and 
reject it.
    So unless we see a willingness on the part of the Morsi 
government to revisit the constitution, to reopen the process 
and change some of these very problematic provisions, I think 
that would be a very, very troubling indicator.
    Mr. Meadows. So would all of you agree that that becomes 
one of those conditions that becomes a line in the sand that if 
they are not willing to do that that we need to reexamine our 
aid to the region?
    Ms. Lantos Swett. You know, I would say I am uncomfortable 
with the language line in the sand because of the complexity of 
things. We have all talked about the fact that Egypt is in that 
region a very indispensable nation. It is the largest nation 
and as goes Egypt, so may go much of the region. So we want to 
see Egypt succeed.
    And the matter of conditionality and the matter of linkage 
is one that has to be handled deftly. I know there has been a 
lot of talk about sequester and meat cleavers. We don't want in 
terms of the way in which we approach issues of conditionality 
to be done in a manner that doesn't reflect deftness and 
flexibility.
    Mr. Meadows. So a soft condition?
    Ms. Lantos Swett. I am more comfortable with that language.
    Mr. Meadows. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. Mr. Grayson, my 
Florida colleague is recognized.
    Mr. Grayson. Thank you. I am wondering is there any 
evidence that Egyptians themselves regard relations with Israel 
as an important part of their political discourse? For 
instance, is there polling to show that if they rank the 
important issues to them individually that they rank the 
relationship between Egypt and Israel as an important issue?
    Let's start with you, Ambassador.
    Mr. Abrams. I don't know the answer to that question.
    Mr. Grayson. You are a very honest man. Anyone else want to 
take a shot at that?
    Ms. Lantos Swett. I don't know the answer to the question 
specifically about polling on the relationship with Israel, but 
I believe that the Pew Research group has done polling on 
something that is very linked which is the levels of anti-
Semitic attitudes in Egypt and they are off the charts. Don't 
hold me to this, but I believe they are among the highest in 
the world and among the highest in the region.
    I didn't really get to finish an answer earlier, when----
    Mr. Grayson. You are going to have to on somebody else's 
time. I am sorry.
    Ms. Lantos Swett. Okay.
    Mr. Grayson. But let me continue talking about what we are 
talking about here. Let me ask you this, do the main Egyptian 
political parties have stated positions on Egypt-Israel 
relations and if so, what are they?
    Ms. Cofman Wittes. The Brotherhood's stated position or 
rather the Brotherhood's party, the FJP's stated position is to 
maintain the Camp David Treaty, although there are individuals 
within the party who have called for a national referendum on 
whether to keep the treaty. This is part of the ambiguity that 
makes this period so uncertain and troubling.
    Amongst the other parties, I don't have these facts in 
front of me. My recollection is that a number of them have said 
yes, we would maintain all of Egypt's international 
obligations. But of course, the treaty itself is de minimis in 
a way. It is what are they willing to do if they are holding 
the reins of power to keep the peace and to deal with security 
challenges as they arise.
    As Elliott Abrams noted, even the Morsi government has 
taken a number of very specific steps that we felt were 
important to keep the peace. They know that this is a sine qua 
non for us. I think the question we have to ask ourselves is is 
that all we want?
    Mr. Grayson. Well, given the high level of anti-Semitism 
that you just described why is it that no political party in 
Egypt has tried to galvanize its own support by trying to 
exploit that anti-Semitism or has that happened?
    Ms. Lantos Swett. I think that has happened. I think that 
is incorrect what you just said. In fact, I think exploiting 
anti-Semitism is taking place on a daily basis from pulpits, in 
newspapers, and academia and on the part of politicians. The 
great fear that I have is that if Egypt is not successful and 
we want Egypt to succeed, it is an old playbook, not a silver 
lining's playbook, it is an old, dark cloud playbook. In that 
region and in other parts of the world that whipping up anti-
Semitism, finding a scapegoat, and making Israel, which I must 
say in the minds of most Egyptians, Israel and Jews are 
synonymous. There is no differentiation between hatred of Jews 
and hatred of what they view as the Jewish Zionist entity. So 
sort of the bright lines that we might say, will they or won't 
they abide by the Israeli-Egyptian Peace Accord, and the 
indication is that for the timing, the intention is to do so, 
those lines get very muddied in the discourse there.
    I think that we do our foreign policy a disservice when we 
don't realize the extent to which these vitriolic, venomous, 
and really poisonous attitudes seep into and characterize the 
lens through which they view relations with Israel.
    Mr. Grayson. Is that anti-Semitism programmatic? In other 
words, are there specific elements of anti-Semitic platform, 
like for instance, let us say terminating the Camp David 
agreements? Or is it simply a manifestation of emotion and 
hatred and very little beyond that?
    Ms. Lantos Swett. I think manifestations of emotions of 
hatred rarely are confined and rarely don't have spillover 
effects in terms of the policies of nations. So again, I think 
it is accurate to say that programmatically, no party has come 
out and said we want to destroy Israel, we are going to wipe it 
off the face of the map, we are going to abrogate the peace 
treaty. But the discourse is saturated with dialogue that is 
problematic and creates a climate in which as the Arab street, 
if you will, as the population becomes increasingly frustrated 
with the lack of delivery on the dreams they hoped for, it 
becomes a dangerous possibility that that old playbook is 
brought into action.
    Mr. Grayson. And the other parties, what is their position?
    Ms. Cofman Wittes. There isn't a lot of specificity on 
this, frankly. I think it is opportunism more than anything. 
Right now, the priorities of the Egyptian people are jobs, 
education, and healthcare. But if governments aren't able to 
deliver, parties can't deliver on those core needs, then the 
temptation to populism gets much, much stronger.
    Mr. Grayson. Thank you, all.
    Ms. Ros-Lehtinen. Thank you. Thank you very much. Dr. Yoho 
of Florida is recognized.
    Mr. Yoho. Thank you, Madam Chair. Thank you guys. I 
appreciate the input. This is something that just fascinates 
me. You know, back in the 1800s, de Tocqueville came to the 
United States to see how our country was succeeding and growing 
so well. And when he went back and reported, he said, ``Rarely 
could I find anybody that did not understand the 
Constitution.'' And then when Anwar Sadat got assassinated, the 
question was will the people pick somebody according to the 
constitution and the interviewer says the people of Egypt don't 
know and don't understand their constitution, so whoever is in 
charge of the military and that was Hosni Mubarak.
    And now we are going through another change, another 
evolution as Dr. Swett, you brought up. They have been evolving 
for thousands of years and we are going through another one and 
we are at a situation where we put a lot of money into that to 
help build stability in the Middle East which I think is 
important. I think we will agree to that.
    I hear all of you saying how we need to make sure they have 
open elections. We need to have free speech, open democratic 
elections, extend religious freedoms, and personal freedoms and 
women's rights. But what we are doing and correct me if I am 
wrong is we are passing on Western ideology to a country, to a 
religion, and a political system that doesn't accept it. I feel 
personally that is why we are seeing such an upheaval of that 
in the Middle East.
    My question at this point is with the Morsi government, is 
it even stable enough to receive, and I am going to call it the 
cookie, that America has? And that cookie is foreign aid. That 
cookie is a stable government that they can become a partner 
with. Are they stable enough to receive that in lieu of the 
fact that we have got these tanks and the airplanes going over 
there? And the people in my district aren't real happy about 
this and they want it stopped, until we can come back and say 
yes, we have a very stable government and these are the things 
they are going to follow, the 1970 peace accord, Camp David 
Peace Accord. And we want to make sure those things--I just 
want to hear your thoughts on that.
    Mr. Abrams. I would say Congressman, this is a period of 
transition in which they are fighting it out and we hope they 
will fight it out at the ballot box rather than in the streets. 
But when you say, for example, you know, they don't accept our 
standards, they actually are pledged to those standards. They 
have signed up to the Universal Declaration of Human Rights and 
the International Covenant on Civil and Political Rights and so 
forth. So they have said they would. And as we said, that was a 
close election. Morsi won 51 to 48. There are millions and 
millions and millions of Egyptians who are angry, for example, 
about the treatment of women in the last few months in the 
streets of Egypt, about the lack of law and order. So I think 
the critical thing is that we don't walk away from this, that 
we let the people who are fighting for the kind of human rights 
standards that we believe in know we hope they win.
    Mr. Yoho. I hope so.
    Mr. Abrams. Politically, morally, and through our aid 
program, we should be on their side.
    Mr. Yoho. Well, one of my questions, too, is you said that 
they signed those agreements, but I also know a man convinced 
against his will is of the same opinion still, you know. People 
will say and do something to get a reward, but do they follow 
through? It is like you are saying we have propped up the 
Mubarak regime and there was a lot of human rights abuses going 
on in that and you were saying we are giving money, but yet we 
knew that was going on, but we kind of turned a deaf ear to it.
    Mr. Abrams. We did and I think it was a mistake. And we see 
that mistake now. He crushed the center. He crushed the 
liberals, the moderates, and he let the Muslim Brotherhood 
basically play around so that when he fell, the opposition is 
completely divided, except for the Brotherhood which is very 
well organized and takes power. So we pay a price for this now, 
too.
    But I think there are a lot of Egyptians who would like to 
see us take a kind of political and moral lead in saying these 
are the standards that Egypt and Egypt over decades has pledged 
itself to and should meet. And we will hold Egypt responsible 
if it fails to meet this.
    The problem from the point of many Egyptians is they think 
we are walking away from it.
    Ms. Lantos Swett. I would just say based on the many, many 
meetings we had with a wide variety of interlocutors that the 
viewpoint of most of the reformers, again, the people we would 
feel that we have most common cause with, right now is very 
pessimistic. They are not optimistic about the direction things 
are going. And they are highly suspicious and skeptical of the 
underlying motives of the Muslim Brotherhood government. They 
do not feel comfortable with it and the actual concrete 
markers, this flawed constitution and a variety of other 
markers, the impunity, the failure to prosecute those who have 
launched violent attacks against Coptic Christian communities. 
These markers do not give them encouragement.
    So the people on the ground with whom we met for the most 
part were worried, were concerned, and felt that things were 
going in a very troubling direction. The government officials 
with whom we met said this is complicated. This is hard. We are 
trying. We think we are going to get it right. And where the 
full truth lies is hard to know.
    Mr. Yoho. I appreciate it. We are out of time. Thank you, 
ma'am.
    Ms. Ros-Lehtinen. Thank you. Congresswoman Frankel is 
recognized.
    Ms. Frankel. Thank you, Madam Chair. Thank you to the 
panel. I want to talk about unintended consequences. I think 
everybody here probably agrees that there is a lot of troubling 
aspects of the Morsi regime. My question to you and especially 
as it relates to the security of Israel and the stability of 
the Middle East, what are the unintended consequences of us 
having--withdrawing aid now or having conditions that could not 
be met?
    Ms. Cofman Wittes. I think one reason why we haven't seen 
significant change in the aid relationship is because things 
are uncertain. Responding tactically in the initial follow on 
to dramatic events makes sense. I think that the way the Gaza 
crisis in November was resolved demonstrates that this Egyptian 
Government understands the importance not only to the United 
States, but to its own interests and its own priorities taking 
power, keeping power and governing, of keeping stability with 
its neighbors and particularly with Israel.
    So at the sort of practical, functional level, I think we 
have achieved our objective. The question is how do we ensure 
that we are creating an environment where the security of 
Israel and the sustenance of the Egyptian-Israeli peace treaty 
will be maintained over the long term. And that gets to some of 
these societal issues that we have been discussing. But it also 
gets to the fact that the Egyptian people have priorities that 
are domestic priorities. And they know that they need trade 
with the world. They need tourism from the world. They need 
investment from the world. And they are not going to get that 
in an environment of chaos or an environment of conflict with 
their neighbors.
    So the maintenance of peace with Israel is fundamentally in 
the interest of the Egyptian Government, the Egyptian military, 
and the Egyptian people. And part of the role that we can play, 
I think, is to help make that case across Egyptian society and 
in all our engagement with Egyptian political actors.
    Ms. Lantos Swett. I agree with everything that Dr. Wittes 
said. I would just add that interestingly, President Morsi is 
now something of a moderate within his government and I think 
we need to be mindful of the fact that he is being pulled in 
even more extreme directions by some of the Salafist elements 
within his own government and his party. So he does not enjoy 
full support and stability for this somewhat more moderated, if 
you will, and stability-oriented posture that he has taken. So 
the evolving nature and the inherent instability and 
uncertainty of what we are facing there makes policy decisions 
very, very difficult. And you refer to the law of unintended 
consequences, it is a great fear of every policy maker. You may 
be doing the right thing, but will you get the right result for 
doing the right thing.
    Mr. Abrams. One of the things I worry about is the 
deterioration in the Israeli-Egyptian military relationship. It 
has been good, although largely hidden for political reasons in 
Egypt. It has been good for a very long time. What we have seen 
in the case of Turkey which was a terrific relationship, 
Israel-Turkey military, it is pretty much gone. And it is not 
the Turkish military that did that. It is the Turkish political 
leadership. That is something that we should be worried about. 
I think I would say the mil-mil relationship between Israel and 
Egypt has deteriorated significantly since Mubarak left. The 
question is how to maintain what is still there. Mostly that, 
of course, is not our job. It is the job of the Israelis and 
the Egyptians. But I think it is something that we should talk 
to the government of Egypt about because it is set against this 
background. It is harder and harder to do if the overall 
discourse is anti-Israel and anti-Semitic in a very great 
degree. But I think that is something to watch for.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Weber of Texas 
is recognized.
    Mr. Weber. Thank you, Madam Chairman. This is for Mr. 
Abrams to start with. You said in your opening comments that 
you didn't think sending F-16s to Egypt was a good idea, and I 
don't remember exactly, it is not in your prepared remarks that 
we have, that perhaps they need APCs, which I took as Armored 
Personnel Carriers, and a couple of other things that you 
listed, like training. And yet, you do say that they have a bad 
record in human rights violations.
    So what makes you think that they won't take those military 
assets that we send them and use them against their own people?
    Mr. Abrams. That is a terrific question.
    Mr. Weber. I am glad you think so.
    Mr. Abrams. It is absolutely right and you know, I can 
remember days in Latin America in the Reagan administration 
when we were happy to give people in those days F-5s because we 
knew that they couldn't use them against their own populations, 
so we wouldn't have a human rights problem in that way.
    There is absolutely no guarantee.
    We do know that the F-16s are not going to be useful to 
address the security concerns that ought to be theirs and 
certainly are our concerns, for example, the Sinai. The only 
thing you can do, I think, is put some kind of conditionality 
on it and let the Egyptian political and military leadership 
know that this is temporary and it is going to be cut off if 
this continues which is what we do in a lot of countries. But 
it is a great worry because the relationship between in Sinai, 
for example, the Egyptian military and police on the one side 
and the Bedouin on the other is bad enough already. So the 
likelihood that there would be human rights abuses is very 
real.
    Mr. Weber. Then you go on to say we have sent four F-16s, 
if I remember your comments correctly. How many more do we 
lack, and what is the time frame?
    Mr. Abrams. There were four on January 28 and the whole 
package I believe is 16. I believe it is 16 over the next 1\1/
2\ years.
    Mr. Weber. So are you concerned that those will be 
eventually used with all of the rhetoric that is going on 
against Israel, or are you concerned that those will be used 
against Israel in the near future?
    Mr. Abrams. No, I am not because I think it is so clearly 
against the national interest of Egypt and against this 
government's. I think it would be a piece of insanity. One can 
worry about what happens 5 years down the road if this 
government collapses and is replaced by a Salafi, a worse 
government, but for this government, I think they will not do 
something that could lead to the collapse of the regime. And a 
conflict with Israel which they would lose in potentially 
humiliating fashion, could lead to the collapse of the regime.
    Mr. Weber. Okay, and then Dr. Swett, I am going to let you 
answer that question you didn't get to earlier.
    Ms. Lantos Swett. Oh, you are very kind. You know, I did 
sort of address it in response to--well, actually, Congressman 
Grayson didn't let me say it. You are right. I simply was 
intending to make the point that if Egypt is not able to 
succeed, if they are not able to fulfill the economic and 
domestic needs of their people, it is very hard to imagine this 
Muslim Brotherhood government just sort of willingly turning 
over power to a more secular, a more moderate, a more Western-
oriented, if you will, government through democratic processes. 
And I worry that the virulent anti-Semitism and just unending 
avalanche of hatred toward Israel and the Jews could become a 
pretext, in fact, for scapegoating and for turning attention 
away from the domestic failures by provoking confrontation, 
maybe not all out military conflict.
    Mr. Weber. Pardon me for interrupting, but if and when that 
happens, then what Mr. Abrams said goes out the window, because 
they will indeed use those assets in such a fashion----
    Ms. Lantos Swett. Or will permit terror from their side of 
the border.
    Mr. Weber. State-sponsored terrorism. Does that really 
exist? Who knew.
    Ms. Lantos Swett. Impunity is really the way many 
governments operate, that things are permitted to happen and 
not stopped. And so that would be, I think, a very real concern 
from my perspective.
    Mr. Weber. So, back very quickly to Mr. Abrams, if you had 
your druthers, you would shut down the rest of those F-16s?
    Mr. Abrams. I would.
    Mr. Weber. Okay, and how about you, Dr. Swett?
    Ms. Lantos Swett. You know, I am here talking about 
religious freedom and tolerance and human rights and so I think 
I probably better stick to my area of expertise on that one.
    Mr. Weber. Thank God you recognize that. Dr. Wittes?
    Ms. Cofman Wittes. Very briefly, I will say I would like to 
see more of our military-to-military engagement involve 
training, involve counterterrorism missions, involve the kind 
of engagement that allows us to continue socializing the 
Egyptian military toward professionalization, toward norms of 
human rights and toward the rule of law as a tool for security 
and stability.
    Mr. Weber. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir. Mr. Connolly, 
my friend from Virginia, is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and welcome to our 
panel. Ambassador Abrams, you mentioned twice that Morsi only 
got 51 percent and 48 percent voted against him. What is your 
point?
    Mr. Abrams. My point is that he should recognize in ruling 
Egypt that he is not a dictator, that there is going to need to 
be widespread public support including in the Parliament among 
the other parties to do the hard things that this new 
Government of Egypt has to do. So far, he has acted as if he 
had 99 percent of the population----
    Mr. Connolly. Mr. Abrams, you will forgive me for 
observing, you served in an administration that came into power 
with a Supreme Court ruling 5 to 4 when the other guy got more 
votes than your guy. So I mean I wish the Bush administration 
had followed your advice in terms of that----
    Mr. Abrams. I think we did because we had people in 
Congress.
    Mr. Connolly. I don't think Democrats felt that was the 
case. I think it is very dangerous business, frankly, when we 
question the legitimacy or implicitly question the legitimacy 
of an election. There may have been irregularities. The fact of 
the matter is Morsi won an election, whether it was 51 percent 
or 80 percent, he won. And we have to deal with it. I think we 
are in dangerous grounds when we question the legitimacy of it 
and especially when we have had our own problems, frankly, in 
our country.
    Mr. Abrams. I didn't use the word legitimacy, Mr. Connolly.
    Mr. Connolly. I understand.
    Mr. Abrams. And I would compare Tunisia where they also won 
an election, but have had a coalition government in an effort 
to reach out to other parties.
    Mr. Connolly. But you made a very good point from my point 
of view which was that for 30 something years, we supported the 
Mubarak government and in doing so we sort of were complicit in 
turning a blind eye to the creation of any alternative 
political space. And now we are faced with a Muslim Brotherhood 
government which was inevitable if there was no political space 
since it was the only group that could network, albeit 
sometimes illegally, but it did it.
    The real question to me, I was in Egypt in May, and I met 
with the Muslim Brotherhood. It was before Morsi's election. To 
me, the real question is can the Muslim Brotherhood evolve to 
some level of acceptable democratic governance that respects 
the rights of minorities, especially--Dr. Swett, you talked a 
lot about anti-Semitism, but we haven't talked about Coptic 
Christians and the respect for that very substantial minority 
in Egypt and what rights are they going to have in this new 
constitution that got forced through the legislative body? So 
to me, that is the question and I wonder if you agree is that 
the question? And what's the proper role of the United States 
in trying to help them with that?
    It seems to me a sledge hammer is not going to help. They 
have got their own domestic politics and if it looks like they 
are caving to our pressure that is rather crude. I don't think 
politically that is going to work. So in the time that is left, 
I wonder if you would care to comment?
    Dr. Wittes?
    Ms. Cofman Wittes. Thank you. I think we have a lot of 
cards to play. As I said, I think they care about our 
recognition. They care about the seal of approval, if you will, 
from Western governments. It is why President Morsi was so 
eager to continue with his trip to Germany, even though he was 
facing massive protests in the cities of the Suez. And he 
didn't get the full-throated support of the German government 
in the way that he wanted because of the human rights problems 
in his country.
    So I think that we need to continue to think about that 
kind of leverage.
    Also, ultimately, what will compel the Muslim Brotherhood 
to behave in a way that can make them a constructive democratic 
actor? Competition. We need to ensure that this is going to be 
a pluralist political system. That means rights need to be 
protected and it means we need to help the other parties get 
their act together and ensure that not only these next 
elections, but the ones after and the one after that are free 
and fair.
    Ms. Lantos Swett. You know, Mark Twain once said that 
``history doesn't repeat itself, but it rhymes.'' And in 
responding to your question about can the Muslim Brotherhood 
evolve and change, I just am having a deja vu moment when I 
remember when Putin came to power in Russia. And the discussion 
at that time was can a KGB guy be trusted with Russian 
democracy? And a lot of people were nervous about it, including 
myself. And as that verdict is coming in, it is not actually a 
very positive verdict. Count me skeptical on that question.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Connolly.
    Mr. Connolly. Can we just allow Mr. Abrams to answer?
    Mr. Abrams. Thank you. I wanted to say I agree completely 
with Dr. Wittes. The answer I think is competition. If they 
think they will lose power in a free election, they will begin 
to move. So anything we can do to promote, free debate, free 
elections will help.
    Ms. Ros-Lehtinen. Thank you so much. Mr. Cotton is 
recognized.
    Mr. Cotton. Thank you, Madam Chairwoman. I agree with my 
colleague from Virginia that structural constitutionalism is 
very important to freedom and it works very well here in the 
United States, so I would like to explore how it works in 
Egypt. There has been plenty of talk about freedoms that we 
enjoy under our Bill of Rights, religion, speech, assembly, 
press, freedoms of women, minorities, due process in criminal 
cases, rights of property, rights of contract. As Madison said, 
those are only parchment barriers. If you don't have things 
like what we have in the articles of our Constitution, 
separated powers and independent judiciary and prosecutor, 
judicial review, fair, regularly scheduled, impartial 
elections, I would like the witnesses to comment on the status 
of those kind of structural protections in Egypt. And also 
whether our Government is prioritizing those as opposed to 
simply prioritizing elections?
    Ms. Cofman Wittes. Well, I will start. I think there are 
two structural features that I would highlight. The first is 
within the Constitution itself, the section that lays out the 
rights of individual citizens is structurally subsumed to the 
rights and privileges of the state. So that is an architectural 
problem. And it is the reverse of what we have with our Bill of 
Rights. In fact, it is the reverse of our whole structure.
    The other issue I would highlight and one reason why I 
think we have seen such troubling indicators over the last 9 
months or the last 1\1/2\ years is that essentially, we have 
had an executive ruling unconstrained. There hasn't been a 
functioning Parliament in Egypt to check that executive's 
power. The judiciary is compromised for a variety of reasons, a 
lot of holdovers from the previous regime, questions about its 
independence.
    So without institutional checks on executive power, without 
effective opposition parties to check the power of the ruling 
party, where does accountability come from? The only place left 
is civil society. And I have to say that Egyptian civil society 
organizations have been doing an incredible job of trying to 
hold this President accountable. Transparency measures, giving 
information in public, documenting abuses, challenging proposed 
laws, but they can't do it themselves. They need external 
support. They need our partnership. And they need those 
institutions to be built.
    Ms. Lantos Swett. I would say from the religious freedom 
perspective there are, as I indicated earlier, a number of 
problematic provisions. The one thing that was brought to our 
attention repeatedly is that one of the provisions in this new 
constitution seems to give a religious body, Al-Azhar, the 
authority to interpret the constitution and this was of 
enormous concern again to secular and reformist groups. They 
were adamant that only a court, a supreme judicial court, 
should have that authority. And we heard just repeated worries 
on the part of a variety of people and not just secularists, 
but certainly the Coptic minority, that Egypt was moving in the 
direction of becoming a religious Islamist state. And that 
relates to a whole slew of fundamental architectural issues 
about how you are going to protect that range of rights that 
you referred to earlier. So through the religious freedom lens, 
really problematic aspects of the constitution are of grave 
concern.
    Mr. Abrams. Nothing to add. I think that is really quite 
right. Well, one thing to add. We do have a role here to play. 
Whether we like it or not, if we are silent about these issues, 
we weaken the side that really we are on in those debates in 
Egypt.
    Mr. Cotton. So if I can synthesize what I have heard, some 
of the provisions that we might call the Bill of Rights are 
troublesome, some of the architectural designs are more 
troublesome yet. Do you think that our State Department, our 
Government, is doing enough to emphasize the need for those 
kind of structural protections of individual liberties?
    Mr. Abrams. I don't think so, Congressman. It appears that 
human rights and democracy activists in Egypt don't think so 
and that is an important issue. I fear that we are lapsing back 
into the way we mostly over 30 years handled the Mubarak regime 
which was to go along with the occasional statement. And 
frankly, the occasional statement from the State Department 
spokesmen or the Embassy spokesmen won't cut it. It really has 
got to come from the President or Secretary of State if it is 
going to have any impact.
    Ms. Lantos Swett. I would agree with that. I think the 
default position is always to be quietly critical and publicly 
passive. And I just don't think that cuts it. I don't.
    Ms. Cofman Wittes. I will just say we said that we would 
stand up for a set of principles in the course of supporting 
democratic transition and we need to do that.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Connolly. Mr. 
Schneider of Illinois is recognized.
    Mr. Schneider. Thank you and thank you for joining us 
today.
    Ambassador Abrams, you talked about the importance of mil-
mil relationship between Egypt and Israel. And I would like to 
explore a little bit beyond the personal relationships across 
the board, both Egyptian-Israeli, Egyptian-United States. As we 
look at Egypt and as it seems to be moving on a path toward 
more extremism, similar to what you described in Turkey, how do 
we decide when to push forward on relationships to stay engaged 
to maybe look for an alternate detour route for those 
relationships and when to stay silent?
    Mr. Abrams. I think it is very difficult, of course, to 
make those decisions. One way to do it, I think, is to be 
talking to the people who are fighting for the things that we 
believe in, the standards we believe in, in Egypt, the 
democracy, the human rights activists, who are feeling let down 
right now. They will have an important view of whether more 
statements by the United States would help or hurt and what is 
a good symbolic act to take. I think we should also be talking 
to some of the other Embassies in Egypt. Some are active on 
human rights issues. Many are not. But you know, you have in a 
sense to rely to some degree on your diplomats, too.
    The problem I think has been that diplomats in Cairo over 
the years have tended to have far closer relationships with the 
Government of Egypt, whatever that government is, and to want 
to succor that relationship and not make trouble for that 
relationship by having others outside the government with 
groups that whatever the government is it views as 
troublemakers.
    Mr. Schneider. Dr. Wittes.
    Ms. Cofman Wittes. Thank you. I will tell you a few of the 
things I have heard from activists on the ground because I 
think Elliott is right, we need to listen to them. They have 
said please don't cut off economic aid. We are in desperate 
straits, but hold our Government accountable. They have said 
please don't invite President Morsi to Washington until he has 
dealt with the political facts he needs to deal with here at 
home. And they have said please speak out on the principles 
that you articulated as the foundation for your support of 
democracy in the region.
    And we have said repeatedly, in fact, from the beginning of 
the Obama administration that parties that want to participate 
in democratic politics need to respect equality of all, 
including women and minorities. We have said that they need to 
respect the rules of the election after the election as well as 
before.
    So the precedents are all there, but we need to be 
consistent about applying them.
    Mr. Schneider. But occasionally desperation can be the 
enemy of accountability, especially for diplomats. How do we 
make sure as we are holding, trying to hold Egypt to our 
standards that we are not pushing them in the wrong direction, 
that we hold to the accountability while maintaining the 
support that they require?
    Ms. Lantos Swett. You know, one thing that I think we need 
to bear in mind is we are not holding them to our standards. We 
are holding them to international standards to which they have 
subscribed. We are holding them to treaty obligations that they 
freely undertook which they are not being accountable to. So 
you know, it sometimes is important to keep that distinction in 
mind. Certainly, in the work that we do at UCIRF, we do not 
seek to hold other countries to America's standards on 
religious freedom which in some ways are not entirely identical 
to international standards. We seek to hold them to 
international standards. And I think that that needs to be 
emphasized in our dealings because then it is perhaps less 
offensive in terms of how we deal with other countries.
    Ms. Cofman Wittes. If I may just make one more point? I 
think there are politics here, too. A lot of the persuasion 
involves helping them recognize that adhering to these 
standards is in their own interest.
    Mr. Schneider. Right.
    Ms. Cofman Wittes. A lot of Coptic Christians voted for 
Mohammad Morsi in the hope that he could bring along some more 
conservative forces to recognize that Egypt had to be an Egypt 
for all its citizens. And when he was inaugurated and spoke 
those words they had hope. He promised to appoint Coptic 
Christians to his cabinet. And he has reneged on a lot of those 
promises. But there is a constituency there. Egyptian politics 
doesn't have to be dictated by sect or by religious identity. 
It has a strong national identity. And if we can help Egyptian 
politicians see how they could benefit, then I think we will be 
farther along.
    Mr. Schneider. Ambassador Abrams.
    Mr. Abrams. Just one quick remark. You do not need to worry 
that Secretary of State Kerry is going to be getting memos from 
the Near East Bureau that says break off from Egypt. Let us 
just cut them off. I think we need to worry that the memos from 
the Bureau and the cables from Embassy Cairo are going to be go 
slow, go soft, it is difficult here, let us not make trouble, 
let us be careful, let us nurture the relationship. I think 
they are going to go far over in that direction. It is built 
into the system.
    Mr. Schneider. Thank you.
    Ms. Ros-Lehtinen. Thank you. Congressman Deutch and I 
agree, excellent panelists. Thank you very much and this 
subcommittee is now adjourned.
    [Whereupon, at 12:46 p.m., the subcomittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         <F-dash>\<dot-box><box><Rx><Rx><box><star><variable> 
                     <because><F-dash><Register>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[Note: Responses from Tamara Cofman Wittes, Ph.D., to the questions 
submitted for the record by Honorable Joseph P. Kennedy III, were not 
received prior to printing.]

                                 <all>

</pre></body></html>
